<html>
<title> - HINDER THE ADMINISTRATION'S LEGALIZATION TEMPTATION (HALT) ACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






     HINDER THE ADMINISTRATION'S LEGALIZATION TEMPTATION (HALT) ACT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   IMMIGRATION POLICY AND ENFORCEMENT

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2497

                               __________

                             JULY 26, 2011

                               __________

                           Serial No. 112-50

                               __________

         Printed for the use of the Committee on the Judiciary



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





      Available via the World Wide Web: http://judiciary.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
67-575 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             DEBBIE WASSERMAN SCHULTZ, Florida
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
[Vacant]

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

           Subcommittee on Immigration Policy and Enforcement

                  ELTON GALLEGLY, California, Chairman

                    STEVE KING, Iowa, Vice-Chairman

DANIEL E. LUNGREN, California        ZOE LOFGREN, California
LOUIE GOHMERT, Texas                 SHEILA JACKSON LEE, Texas
TED POE, Texas                       MAXINE WATERS, California
TREY GOWDY, South Carolina           PEDRO R. PIERLUISI, Puerto Rico
DENNIS ROSS, Florida

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel














                            C O N T E N T S

                              ----------                              

                             JULY 26, 2011

                                                                   Page

                                THE BILL

H.R. 2497, the ``Hinder the Administration's Legalization 
  Temptation (HALT) Act''........................................     3

                           OPENING STATEMENTS

The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California, and Chairman, Subcommittee on 
  Immigration Policy and Enforcement.............................     1
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Chairman, Committee on the Judiciary.......     8
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration Policy and Enforcement.............................     9
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Texas, and Ranking Member, Committee on the 
  Judiciary......................................................    10

                               WITNESSES

Chris Crane, President, National ICE Council
  Oral Testimony.................................................    17
  Prepared Statement.............................................    20
Jessica M. Vaughan, Policy Director, Center for Immigration 
  Studies
  Oral Testimony.................................................    29
  Prepared Statement.............................................    32
Margaret D. Stock, Adjunct Professor, University of Alaska-
  Anchorage
  Oral Testimony.................................................    39
  Prepared Statement.............................................    42

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable David Vitter, a U.S. Senator 
  from the State of Louisiana....................................    14
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration Policy and Enforcement.............    66

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of Richard T. Foltin, Esq., Director of 
  National and Legislative Affairs, Office of Government and 
  International Affairs, American Jewish Committee...............   107
Letter from Nelson Peacock, Assistant Secretary, Office of 
  Legislative Affairs, U.S. Department of Homeland Security......   109

 
     HINDER THE ADMINISTRATION'S LEGALIZATION TEMPTATION (HALT) ACT

                              ----------                              


                         TUESDAY, JULY 26, 2011

              House of Representatives,    
                    Subcommittee on Immigration    
                            Policy and Enforcement,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:11 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Elton 
Gallegly (Chairman of the Subcommittee) presiding.
    Present: Representatives Gallegly, Smith, Gohmert, Gowdy, 
Conyers, Lofgren, Jackson Lee, and Pierluisi.
    Staff Present: (Majority) George Fishman, Subcommittee 
Chief Counsel; Marian White, Clerk; and (Minority) Hunter 
Hammill, USCIS Detailee.
    Mr. Gallegly. I call to order the Subcommittee on 
Immigration Policy and Enforcement. Good afternoon.
    Two weeks ago, Ranking Member Lofgren held a press 
conference to denounce the HALT Act. Last week, 75 Democrats 
sent a letter to President Obama to tell him that they would 
work to sustain a veto on this bill.
    The HALT Act, if enacted, would prevent the Obama 
administration from engaging in the mass legalization of 
illegal immigrants. Clearly, the lines are drawn between those 
who support upholding the laws of the United States and those 
who believe they should be ignored.
    Immigration advocacy groups have been working for years to 
convince Congress to pass mass amnesty legislation for illegal 
immigrants. Upon the failure of those efforts, they have been 
trying to convince the Administration to bypass Congress and 
administratively legalize millions of illegal immigrants.
    These groups have apparently made headway. Last month, U.S. 
Immigration and Customs Enforcement issued two memos that laid 
the groundwork for just such a mass legalization. We will hear 
from witnesses today about the pressures that ICE officers are 
now under to refrain from enforcing immigration laws.
    In reaction, Chairman Smith and Senator Vitter introduced 
the HALT Act, and amnesty advocacy groups have strongly 
condemned the bill. Congress simply cannot allow the 
Administration to grant parole or deferred action, except in 
narrow circumstances. Congress cannot allow the Administration 
to grant extended voluntary departure or cancellation of 
removal, to grant work authorization except where authorized by 
law, to grant temporary protective status, or to waive the bars 
of admissibility for immigrants who are here illegally.
    How do we handle extraordinary humanitarian situations that 
are bound to occur in the interim? Congress can always act by 
passing private bills to help non-U.S. citizens in the U.S. or 
outside the U.S. when we deem it wise, just, and prudent.
    I look forward to hearing from the witnesses today. And at 
this point, we expect the Ranking Member here shortly. But 
until she comes, I will defer to the Chairman of the full 
Committee, Mr. Smith, the author of the bill.
    The bill, H.R. 2497, follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Smith. Thank you, Mr. Chairman.
    The American people have called upon Congress to defeat 
several amnesty bills in recent years. Following Congress' 
rejection of these attempts, the current Administration now 
wants to grant a ``backdoor amnesty'' to illegal immigrants.
    What had once been rumor fueled by leaked Administration 
memos is now official Department of Homeland Security policy as 
of last month. The Director of U.S. Immigration and Customs 
Enforcement issued two directives on the scope of DHS officers' 
prosecutorial discretion that could allow millions of illegal 
and criminal immigrants to avoid our immigration laws.
    The memos tell agency officials when to exercise 
prosecutorial discretion, such as when to defer the removal of 
immigrants, when not to stop, question, arrest, or detain an 
immigrant, and when to dismiss a removal proceeding.
    The directives also tell officials not to seek to remove 
illegal immigrants who have been present illegally for many 
years.
    Millions of illegal immigrants have been in the U.S. since 
the 1990's. So the ICE directives literally apply to millions 
of illegal immigrants.
    DHS's plan to open the door to mass administrative amnesty 
is a rejection of Congress' constitutional rights and shows 
utter disdain toward the wishes of the American people.
    Prosecutorial discretion is justifiable when used 
responsibly. In fact, I and others asked Clinton administration 
INS Commissioner Doris Meissner to issue guidelines recognizing 
that ``true hardship cases [involving legal, not illegal, 
immigrants] should exercise discretion.''
    Commissioner Meissner did so, but she was careful to point 
out that prosecutorial discretion ``must be used responsibly'' 
and that ``exercising prosecutorial discretion does not lessen 
the INS's commitment to enforce the immigration laws to the 
best of our ability. It is not an invitation to violate or 
ignore the law.''
    Just this March, Meissner stated that, ``Prosecutorial 
discretion should be exercised on a case-by-case basis, and 
should not be used to immunize entire categories of noncitizens 
from immigration enforcement.''
    Unfortunately, the ICE memos make clear that DHS plans not 
to use but to abuse these powers. If the Obama administration 
has its way, millions of illegal immigrants will be able to 
live and work legally in the United States. This unilateral 
decision will saddle American communities with the costs of 
providing education and medical care to illegal immigrants. It 
will also place our communities at risk by not deporting 
criminal immigrants.
    As a result, Senator Vitter and I introduced the HALT Act. 
This legislation prevents the Obama administration from abusing 
its authority to grant a mass administrative amnesty to illegal 
immigrants.
    The Obama administration should not pick and choose which 
laws it will enforce. Congress must put a halt to the 
Administration's backdoor amnesty.
    Thank you, Mr. Chairman. Yield back.
    Mr. Gallegly. The gentlelady from California, the Ranking 
Member, my good friend Ms. Lofgren?
    Ms. Lofgren. Thank you, Mr. Chairman.
    The bill we are considering today is irresponsible and 
blatantly political. Bills in Congress sometimes have no basis 
in fact, but this one takes that to a whole new level. It is 
designed around a conspiracy theory that really boggles the 
mind. And if I weren't sitting here, I wouldn't believe that 
the U.S. Congress would actually waste time and money on such a 
bill, but here we sit.
    According to the majority, the bill is a response to a 
series of recent ICE memos that lay out immigration enforcement 
priorities and provide guidance on the use of agency discretion 
to best meet those priorities. Actually, anyone who reads the 
memos will see there is nothing sinister about them.
    Like every other law enforcement agency on the planet, ICE 
has limited resources, and it must lay out enforcement 
priorities so that resources are not squandered. As crazy as it 
sounds, these memos put terrorists, criminals, and otherwise 
dangerous individuals at the top of that list.
    If we can only deport a limited number of people, around 
400,000 this year, the memos say, then ICE should focus its 
resources on those who would do us harm. That is just common 
sense.
    But rather than see common sense, the majority apparently 
sees a diabolical plot. They allege a grand scheme to avoid 
enforcing immigration laws, even while the Obama administration 
has set all-time records with respect to removals, prosecution 
of immigration violations, worksite enforcement actions, fines, 
jail time, and assets at the border.
    In 1999, a number of congressmen sent a letter to former 
Attorney General Reno stressing the importance of prosecutorial 
discretion in the immigration context, asking her to issue 
necessary guidance. In that letter, the congressmen cited, 
``Widespread agreement that some deportations were unfair and 
resulted in unjustifiable hardship,'' and they asked why the 
INS pursued removal in such cases when so many other more 
serious cases existed.
    They urged for a prioritization of enforcement resources, 
asking the Attorney General to develop INS guidelines for the 
use of its prosecutorial discretion similar to those used by 
U.S. attorneys.
    The letter was signed by the current Chair of our Judiciary 
Committee, as well as many other very conservative Members of 
the House, including former Chair Henry Hyde, former Chair Jim 
Sensenbrenner, Brian Bilbray, Nathan Deal, Sam Johnson, and 
David Dreier. I guess prosecutorial discretion wasn't so bad 
back then.
    Ironically, it was the 1999 letter signed by the Chairman 
that started the chain of events that lead us to the two ICE 
memos at issue today. Months after Chairman Smith signed the 
letter asking for guidance, guidance finally came.
    Memos outlining guidelines for the use of prosecutorial 
discretion were issued by the INS general counsel in July of 
2000 and then issued by INS Commissioner Doris Meissner in 
November of 2000 and later issued by the first ICE Director 
Julie Myers in November of 2007.
    These early memos are the predecessors of the two memos the 
majority is complaining about today. The majority never said 
anything about those earlier memos or the factors listed in 
those memos until now.
    In a recent ``Dear Colleague'' letter seeking support for 
the HALT Act, Chairman Smith questions many of the factors 
listed by ICE for exercising discretion, focusing on certain 
factors, such as length of presence in the U.S., family ties, 
whether a person is DREAM Act eligible, as clearly indicating 
the Administration's plan to grant amnesty to millions of 
undocumented immigrants. But these factors are not new in any 
way. They are the same factors we have been considering for 
years.
    In fact, length of presence, family ties, entry during 
childhood have been specifically listed as positive factors for 
agency discretion since they were first listed in the memos 
published by INS in 2000 in response to the Chairman's letter.
    By eliminating prosecutorial discretion, it says that ICE 
cannot prioritize criminals over the spouses of soldiers. It 
says that ICE must go after innocent children the same way it 
goes after murderers and rapists. That is absurd, and so is 
this bill.
    If this bill were the law, we could not grant waivers to 
the spouses of U.S. citizens who would suffer extreme hardship 
if they were separated; parole to the U.S. widows so they could 
attend the funerals of spouses killed in action while serving 
in our military; parole in orphan children to be with their 
U.S. citizen grandparents; parole in orphans being adopted by 
United States citizens, as we did after the Haitian earthquake; 
grant TPS in case another catastrophe like the Haiti earthquake 
were to happen again; grant deferred action to victims of human 
trafficking and violent sexual abuse; parole in child bomb 
victims in Iraq who need prosthetic limbs; or prevent 
businesspeople from getting--who are lawfully present in the 
United States from getting advance parole so they can do their 
business abroad and be able to return home to work.
    You know, in the District of Columbia, it is a crime to 
engage in prostitution. In July of 2007, Ms. Deborah Palfrey, 
known as the ``D.C. madam,'' who had been convicted under this 
statute, published her phone records indicating that one of our 
witnesses was her client. Later, Senator Vitter said, ``This 
was a very serious sin in my past, for which I am, of course, 
completely responsible.''
    Under the D.C. criminal statute related to solicitation, 
the Senator could have faced 90 to 180 days for each 
solicitation, but he never faced trial. In fact, prosecutors 
never brought charges. Sure looks like he benefitted from 
prosecutorial discretion.
    I would not mention this incident today if it didn't expose 
the hypocrisy of seeking to prevent the use of discretion to 
benefit others when one has enjoyed the benefit himself.
    Now I notice that Senator Vitter has not, in fact, showed 
up today, but we do have his testimony. It is a part of our 
record. And I think it really takes the cake to get the benefit 
of discretion and urge that it be denied to others.
    With that, I yield back.
    Mr. Gallegly. The gentleman from Michigan, the Ranking 
Member of the full Committee, Mr. Conyers?
    Mr. Conyers. Thank you, Chairman Gallegly and Chairman 
Smith.
    This is an unusual matter. H.R. 2497, the ``Hinder the 
Administration's Legalization Temptation Act.'' Could I yield 
to anyone to tell me whose title that is? Was it originated by 
Members of Congress or some brilliant staff person? Did you 
want me to yield to you?
    Mr. Gallegly. I can't answer that question.
    Mr. Smith. I will be happy to respond to the gentleman, if 
he wants to yield?
    Mr. Conyers. Of course.
    Mr. Smith. We thought that was a particularly appropriate 
acronym, H-A-L-T. And I won't say who we should give the credit 
to, but it was obviously a creative mind. But it so happens 
that acronym is very, very appropriate, since we are trying to 
halt the Administration's efforts to engage in backdoor 
amnesty.
    And thank you for yielding.
    Mr. Conyers. Well, that is fine. I just--Hinder the 
Administration's Legalization Act of Immigration. That would 
have been a title I wouldn't raise an eyebrow about, but the 
Hinder the Administration Legalization Temptation Act? I have 
never heard the word ``temptation'' involved in a title of a 
bill in my years in the Congress. But there is always a first 
time. So this is it.
    If anybody ever uses that word again, with or without an 
acronym, I will remember that it started in the House Judiciary 
Committee by some unknown creative mind. [Laughter.]
    So the majority, and particularly my dear friend, the 
Chairman of the Committee, full Committee, my friend Lamar 
Smith, thinks President Obama cannot be trusted with the 
authority that every other President has had. The bill's sunset 
date, January 21, 2013, says that Obama is such a great threat 
that he and only he must have his authority withdrawn.
    So this is not an attack on the presidency, but an attack 
on the President himself. And I am just wondering am I being 
overcritical? And I would yield to anyone who suggests that 
maybe this is not the case.
    This is not an attack on the office of the President. This 
is an attack on Barack Obama himself. Now----
    Mr. Smith. If the gentleman would yield, I would like to 
clarify that, if I could?
    Mr. Conyers. Yes, sir.
    Mr. Smith. This is not a personal attack on any individual. 
What it is, is an effort to halt what many of us perceive as 
being abusive executive decisions that would lead to the 
backdoor amnesty that I think we would like to prevent.
    And in this particular instance, it is this President who, 
in my judgment, who has been abusing the privileges of the 
Administration. I would be happy to have this apply to any 
other President in the future.
    It just so happens that the individual who is serving as 
President today is the one whose officials within the 
Administration are abusing the process. And that is the purpose 
of the bill is to stop those kinds of procedures.
    Mr. Conyers. Well, I thank you, Lamar Smith, for that 
explanation.
    Do you want me to yield to you?
    Mr. Gallegly. No. I was just going to ask a question.
    Mr. Conyers. Sure.
    Mr. Gallegly. Maybe it is a rhetorical question, but if it 
is, forgive me. When you alluded to January 2013, were you 
conceding that that would be the end of President Obama's 
presidential career?
    Mr. Conyers. Well, much to your sorrow, no. [Laughter.]
    Mr. Gallegly. Just checking.
    Mr. Conyers. That is what the bill says. The bill's sunset 
date is January. They are assuming that perhaps they won't have 
this President that endorses backdoor immigration won't be 
here.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Conyers. Yes. May I have an additional 2 minutes, Mr. 
Chairman?
    Mr. Gallegly. Without objection.
    Mr. Conyers. Thank you, sir.
    And I yield to Zoe Lofgren.
    Ms. Lofgren. I thank the Ranking Member for yielding.
    I would just note that the Department of Homeland Security, 
during the last 2 years of the Bush administration, averaged 
29,343 grants of deferred action and parole a year. For the 
first 2 years of the Obama administration, the average was 
27,800 of grants of deferred action and parole a year, actually 
less than the Bush administration.
    So this, you know, drama of--I mean, I actually personally 
wish it were more. But it is less. There have been more 
deportations and less grants of parole and deferred action 
under the Obama administration than under the Bush 
administration.
    I thank the gentleman for yielding.
    Mr. Conyers. Thanks, Zoe.
    Lamar, did you know that? You couldn't have known that and 
then written the kind of statement and bill that you have 
written. I think the basic premise of the bill is that 
President Obama cannot be trusted to enforce our immigration 
laws, and I think that is just plain wrong and very unfair to 
the President, as Ms. Lofgren has pointed out.
    In the first 2 fiscal years under President Obama, the 
Department of Homeland Security deported more than 779,000 
people. These are record numbers and an 18 percent increase 
over President George Bush's last 2 years in office.
    Lamar, did you know that? Because if you did, you couldn't 
possibly be saying that the President can't be trusted to 
enforce our immigration laws.
    Mr. Smith. Well, if the gentleman will yield?
    The President may be enforcing some of the laws. My point 
is that he is not enforcing all the laws. And if you want to 
look to comparisons, look at this current Administration 
compared to the Bush administration when it comes to worksite 
enforcement, which is down 70 percent in just 2 years.
    So, clearly, this President is not taking advantage of the 
various immigration laws. And in this particular case, we are 
talking about the application of administrative amnesty 
possibly to millions of individuals. That was never 
contemplated by any other Administration.
    And when we talked about the previous Administration, we 
talked about prior uses of prosecutorial discretion. In the 
case of the letter that I wrote--and I don't think the 
gentlewoman from California was present when I mentioned it, or 
she wouldn't have said what she did and she would have had the 
facts. The letter that was referred to mentioned specifically 
legal permanent residents. It does not apply to illegal 
immigrants.
    And it also was on a case-by-case basis, not giving whole 
groups of individuals administrative amnesty. So I am afraid 
that that letter can't be relied upon or used in the way that 
the gentlewoman from California was trying to use it.
    I will yield back.
    Mr. Gallegly. The time of the gentleman has expired.
    We have three distinguished witnesses today. In response to 
the comment that the Ranking Member made as it related to 
Senator Vitter, Senator Vitter was here. And because of the 
delay of getting started, almost an hour, he could not stay. As 
a result of that, without objection, his written statement will 
be entered into the record of the hearing.
    [The prepared statement of Mr. Vitter follows:]


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. The remaining witnesses are as follows. We 
have Mr. Chris Crane, who currently serves as the president of 
the National Immigration and Customs Enforcement Council 118, 
American Federation of Government Employees. He has been 
working as an immigration enforcement agent for U.S. 
Immigration and Customs Enforcement at the Department of 
Homeland Security since 2003.
    In his capacity as an immigration enforcement officer, he 
worked in the Criminal Alien Program for approximately 5 years 
and also served as a member of an ICE fugitive operation team. 
Prior to his service at ICE, Chris served for 11 years in the 
United States Marine Corps.
    Ms. Jessica Vaughan serves as the policy director at the 
Center for Immigration Studies. She has been with the center 
since 1991, and her area of expertise is in the Administration 
and implementation of immigration policy, covering such topics 
as visa programs, immigration benefits, and immigration law 
enforcement.
    Prior to joining the center, Ms. Vaughan was a Foreign 
Service officer with the U.S. Department of State. She holds a 
master's degree from Georgetown University and a bachelor's 
degree from Washington College in Maryland.
    Our third witness, Ms. Margaret Stock, is an adjunct 
faculty member in the Department of Political Science at the 
University of Alaska in Anchorage. Professor Stock has 
frequently testified before Congress on issues relating to 
immigration and national security and has authored numerous 
articles on immigration and citizenship topics.
    She is a retired military officer and recently concluded 
service as a member of the Council on Foreign Relations 
Independent Task Force on Immigration Policy. Professor Stock 
taught at the U.S. military academy at West Point, New York, 
from June 2001 until June 2010.
    Welcome to all of you. We will start with you, Mr. Crane.

             TESTIMONY OF CHRIS CRANE, PRESIDENT, 
                      NATIONAL ICE COUNCIL

    Mr. Crane. Good afternoon, Chairman Gallegly, Members of 
the Committee.
    On June 25, 2010, ICE union leaders publicly issued a 
unanimous vote of no confidence in Director John Morton. To my 
knowledge, it is the only time in ICE or INS history that 
officers and employees of enforcement removal operations issued 
a no confidence vote in their leadership.
    These unprecedented acts by ICE employees should send a 
loud, clear message that something is seriously wrong at ICE. 
ICE union leaders are in the media like never before, speaking 
out about gross mismanagement and matters of public safety, 
warning that ICE and DHS are misleading the public.
    And mislead the public they do. A Federal judge recently 
stated, ``There is ample evidence that ICE and DHS have gone 
out of their way to mislead the public about Secure 
Communities.''
    It is reported that the DHS Office of Inspector General 
will be investigating claims that ICE leadership misled public 
officials regarding the program. To be clear, ICE officers 
disagree with efforts to end the Secure Communities Program. 
But to be equally clear, we abhor the actions of any agency 
official who lies to or misleads the American public.
    That is why, in the union's vote of no confidence 13 months 
ago, we reported ICE's misleading of the public, specifically 
citing the Secure Communities Program as an example.
    Federal judges, law enforcement agencies, State 
representatives, special interest groups, ICE officers in the 
field, everyone says there is an integrity issue with ICE 
leadership. That is exactly where this conversation has to 
begin.
    Does ICE leadership need oversight? The answer is yes. 
There needs to be oversight. There needs to be transparency.
    I was recently appointed to the Homeland Security Advisory 
Committee on Secure Communities. While ICE states that there 
are immigration agents, plural, on the committee, I am the only 
one. Approximately 50 percent of the committee's members appear 
to be immigrants advocates. Not one committee member is a 
public advocate for reforms through stronger enforcement.
    A solid majority of members appear to favor the immigrants 
advocacy viewpoint. The appearance is that ICE has selected a 
stacked deck for this committee. Most alarming to me, on the 
second day of our first meeting, the committee was told that 
our findings and recommendations had been written for us, when 
we hadn't even begun discussion of either.
    Members of the Committee protested, but the Chairman 
overruled the group. When I requested that the agency's 
misleading of the public regarding Secure Communities be 
included in the findings, it was not permitted.
    While I deeply respect the Members of the Committee as 
individuals, I am troubled by the Committee's activities and 
the methods used by ICE to select its members. In my opinion, 
efforts must be made to provide oversight and transparency to 
the activities of DHS and ICE regarding this Committee.
    However, oversight and transparency may be most needed with 
regard to ICE's law enforcement programs. Virtually all of 
ICE's enforcement policies should be public, but ICE leadership 
refuses to put many directives in writing because they don't 
want the public to know that ICE agents and officers, as an 
example, are under orders not to arrest certain groups of 
aliens, that officers generally don't have prosecutorial 
discretion, that ICE is ordering this to happen.
    Other policies that ICE puts in writing are misleading, 
much in the same way the Secure Communities Program was 
publicly misleading. The new prosecutorial discretion memo has 
been publicly spun by ICE as giving ICE officers more 
discretion when, in reality, it takes away discretion.
    It has been advertised as better utilizing limited ICE 
manpower resources, when, in fact, it has the potential to 
overwhelm officers with more work. The policy cannot be 
effectively applied in the field, which may explain why ICE 
itself has been unable to develop training and guidance to 
officers in the field on how to enforce its own policy.
    Other new ICE policies and pilot programs are equally 
troubling. Call-in letters that rely on aliens incarcerated in 
jails to self-report to ICE offices after they are released 
from jail, and new ICE detainers instructing jails to simply 
release aliens not convicted of a crime.
    These policies are not an exercise of prosecutorial 
discretion. They are not law enforcement actions. They are the 
opposite. These policies take away officers' discretion and 
establish a system that mandates that our Nation's most 
fundamental immigration laws are not enforced.
    In conclusion, we applaud the efforts of any Member of 
Congress who attempts to bring oversight to this troubled 
agency. And it is a troubled agency.
    The safety of our officers is of little concern to agency 
leaders. There is no oversight as ICE investigates itself. As a 
union and as employees, we would very much like to work with 
Members of Congress to be your eyes and ears inside the agency, 
with the goal of providing much-needed oversight of ICE and its 
leadership.
    Thank you.
    [The prepared statement of Mr. Crane follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you, Mr. Crane.
    Ms. Vaughan?

 TESTIMONY OF JESSICA M. VAUGHAN, POLICY DIRECTOR, CENTER FOR 
                      IMMIGRATION STUDIES

    Ms. Vaughan. Thank you very much for the opportunity to be 
here today to discuss H.R. 2497.
    Our work at the Center for Immigration Studies is focused 
on examining the impact of all forms of immigration on American 
society and the effects of any proposed changes to our 
immigration policies.
    In my analysis, this bill would not have much of an effect 
on immigration levels, on immigration law enforcement, or on 
how the immigration agencies and their staff routinely do their 
jobs. But what it would do is to prevent any further harm to 
Americans and legal workers that would result if the White 
House or its appointees in the immigration agencies were able 
to expand their efforts to bring about an unpopular and ill-
advised legalization scheme through executive action.
    Just to set the stage, the last decade was the largest 10 
years of immigration in American history. About 13 million 
immigrants settled here, legally and illegally. We also 
admitted several hundred thousand guest workers over the same 
time period every year.
    Meanwhile, our economy lost 1 million jobs over that same 
decade. In 2008 and 2009 alone, 2.4 million new immigrants 
settled here, while 8.2 million jobs were lost in our economy.
    In this economic climate, it is pretty hard to make the 
case that immigration regulations should be relaxed to permit 
illegal workers to stay, especially when most of them would be 
vying for the very same jobs as many unemployed U.S. workers 
and where there is already an oversupply of labor. Yet that is 
exactly what the Obama administration says it wants to do.
    In various public statements and memoranda, officials say 
that the goals are to waive in as many immigrants as possible, 
to drastically scale back immigration law enforcement, and to 
legalize as many of the 11 million illegal aliens as possible. 
And it is not just talk. They have been acting on these plans.
    For example, telling consular officers and benefits 
adjudicators to overlook things that should disqualify 
applicants or restricting what ICE field office staff can do, 
telling ICE lawyers to drop charges on thousands of illegal 
aliens at a time, or letting sanctuary States stay out of 
Secure Communities.
    These actions display a shocking disregard for the public 
trust and for congressional authority over immigration law, not 
to mention the wishes of Americans. At least two-thirds of 
voters consistently express a desire to see stricter 
immigration law enforcement, not weaker.
    Polls show that only about a fourth of voters approve of 
the way the Obama administration has handled immigration 
policy. They understand all of the costs and problems. That is 
why over the last 5 years Congress has repeatedly declined to 
authorize an amnesty or legalization program on any scale.
    It is important to consider, too, that there is no shortage 
of qualified immigrants who are willing to play by the rules 
and go through the process the right way. At last count, the 
State Department reported that there were nearly 3 million 
people who have been sponsored for green cards who are waiting 
their turn overseas, and some of them for as long as 15 years. 
Offering illegal immigrants a path to residency in front of 
these applicants is patently unfair and undermines our legal 
immigration system.
    And not enforcing immigration laws just exacerbates the 
crime and public safety problems. According to ICE statistics, 
there are nearly 2 million criminal aliens living here, more 
than half of whom are at large in our communities. ICE is 
focused on just the worst of the worst, through excessive 
prosecutorial discretion and stingy use of detention, leaves 
too many of the worst still on our streets. And as a result, 
people are getting hurt needlessly.
    People like 10-year-old Anthony Moore, who a couple of 
months ago was walking to the bus stop in Florida, when he was 
mowed down and killed by an unlicensed illegal alien driver. 
This illegal immigrant had at least two prior charges for DUI 
and a probation violation, but he was not enough of a priority 
either for Florida prosecutors or ICE to take action before the 
fatal accident.
    And this kind of story is repeated over and over again all 
over the country, far too regularly. So the lack of enforcement 
is bad enough, but apprehension numbers for ICE, as opposed to 
removal numbers, have actually been going down for several 
years, according to ICE statistics.
    But just declining to arrest or remove an illegal alien 
does not give that person real legal status. To accomplish 
that, the Administration has to rely on the parts of 
immigration law that are specified in this bill. These tools 
are designed to be used for exceptionally compelling cases. 
They are immigration law luxuries and not intended as a way for 
the executive branch to bypass Congress and its unique 
authority to make immigration law.
    Again, while the Administration claims that these are only 
ideas, in fact, they already have begun trying out different 
forms of administrative amnesty, for example, by relaxing the 
extreme hardship standard for the illegal aliens who try to 
apply for green cards, but are disqualified and come under the 
3-year/10-year bar.
    Last year, about 19,000 people in that category 
successfully obtained extreme hardship waivers, and you have to 
ask yourself how extreme can these cases be if that many people 
are able to qualify every year? And the percentage of people 
who qualify has about quadrupled in the last 4 years.
    Common sense tells you these aren't extreme hardship cases. 
They are certainly bitterly disappointed to be denied, perhaps 
financially stressed, and inconvenienced certainly, but not 
really facing what the law defines as extreme hardship.
    The fact that the Administration has already started 
tinkering with forms of relief I think illustrates the need for 
this legislation. The tool of deferred action is especially 
susceptible to abuse since there are no statutory guidelines, 
and the agency has never publicly published statistics on how 
often it is used. So no one can monitor what is being done.
    Mr. Gallegly. Could you please wrap up? We appreciate your 
testimony, but we really need to stick with the time limits.
    Ms. Vaughan. So this bill would help uphold sound 
principles for immigration policy, namely that immigration to 
the United States should occur through legal, fair, and open 
processes.
    [The prepared statement of Ms. Vaughan follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you, Ms. Vaughan.
    Ms. Stock?

 TESTIMONY OF MARGARET D. STOCK, ADJUNCT PROFESSOR, UNIVERSITY 
                      OF ALASKA-ANCHORAGE

    Ms. Stock. Chairman Smith, Chairman Gallegly, Ranking 
Member Conyers, Ranking Member Lofgren, and distinguished 
Members of the Subcommittee, I am honored to be here to provide 
my testimony.
    I am an attorney with the law firm of Lane Powell PC, 
working in its Anchorage, Alaska, office, and my other 
credentials are in the record. The opinions I am expressing 
today, however, are my own.
    The HALT Act is costly, misguided, irresponsible, and will 
undermine immigration law enforcement. I am pleased to have the 
opportunity to explain why the HALT Act should not be enacted. 
Among other things, the HALT Act would hurt many Americans and 
their families, hurt hundreds of thousands of legal immigrants, 
harm the Government's power to respond to foreign policy 
emergencies, interfere with the President's constitutional 
authority over foreign affairs, and lead to untold hardship for 
many noncitizens in cases where the rigid and complex nature of 
U.S. immigration law provides no avenue for them to enter or 
stay in the United States legally.
    I would also disagree vehemently with Ms. Vaughan's no 
impact assessment. This bill will cause huge harm and impact on 
all three agencies within DHS, not just ICE, but also CBP and 
USCIS.
    The Members of this Subcommittee are undoubtedly aware of 
the reality of our Nation's broken immigration system. The 
discretionary authorities that the HALT Act seeks to overturn, 
albeit temporarily, are important safety valves within this 
broken system. The following cases are some individual examples 
of situations where the executive branch has used 
administrative discretion to promote justice in individual 
immigration cases, but would be unable to do so if the HALT 
bill were to become law.
    The HALT Act would prevent the Government from granting 
parole to persons in need of urgent medical care where there is 
no imminent threat to life, such as the Afghan woman who was 
paroled into the United States last year after her husband cut 
off her nose and ears.
    The HALT Act would halt the opportunity that military 
families have to seek parole in place and deferred action on a 
case-by-case basis only to prevent separation during 
deployments and to allow disabled military members and veterans 
to have their family members with them as they undergo medical 
treatment.
    The HALT Act ends all Cuban paroles, a longstanding, 
decades-old program, and the only categorical program that 
existed under Doris Meissner and other immigration 
commissioners.
    The Members of this Committee are no doubt aware of the 
case of Hotaru Ferschke, the widow of deceased U.S. Marine 
Michael Ferschke. Mrs. Ferschke was recently the beneficiary of 
an exceptionally rare private bill. Only two of those have 
passed in the last few years.
    Enacted by Congress and signed into law by the President 
because the technicalities of U.S. immigration law prevented 
Mrs. Ferschke, a person who was seeking lawful immigration to 
the United States, from obtaining an immigrant visa to come 
here after her husband was killed in combat in Afghanistan. 
Mrs. Ferschke wanted to come to the U.S. to raise her infant 
United States citizen son, Michael Ferschke's child, in 
Sergeant Firski's hometown in Tennessee.
    While Mrs. Ferschke was ultimately able to obtain relief 
through a private bill, the process was very lengthy. And 
during that process, Mrs. Ferschke needed parole in order to 
remain in the United States and to travel internationally while 
the private bill was being pursued.
    The HALT Act would terminate the ability of DHS agencies to 
allow such persons to remain in the United States and to travel 
internationally while Members of Congress and Senators pursue 
the very lengthy legislative process of enacting a private 
bill.
    If the HALT Act is enacted, American families will 
experience more separations and hardship, as their family 
members will not be able to qualify for cancellation of removal 
after demonstrating exceptional and extremely unusual hardship 
to a judge.
    Military families will be harmed by the HALT Act, as 
cancellation removal has been granted in cases such as the one 
that I attached to my written testimony. Interestingly, 
Chairman Smith, the HALT Act would retain cancellation of 
removal for criminal aliens who have green cards. The 
noncriminal ones would lose cancellation.
    In my written testimony, I provide many more examples of 
individuals and vulnerable, compelling groups who could no 
longer be protected if the HALT bill becomes law. I am pleased 
to hear Mr. Gallegly say that he would be willing to support 
private bills on behalf of these folks, and I will ask the 
people I listed in my testimony to request private bills 
because I do believe that is one solution if HALT is enacted. 
But it is a difficult one and lengthy.
    Ironically, the HALT Act will create chaos in the legal 
immigration system, as hundreds of thousands of adjustment 
applicants, many of them skilled workers, college professors, 
business executives, outstanding athletes, scientists, and the 
immediate relatives of U.S. citizens will no longer be able to 
travel internationally while their adjustment applications are 
pending. These are the qualified immigrants that Ms. Vaughan 
was discussing.
    They will be deprived of their advance parole authority, 
which they use to travel internationally during the many months 
it takes for USCIS to process their adjustment applications.
    The HALT Act's stated purpose is to prevent a backdoor 
amnesty by the Obama administration. But none of the provisions 
targeted by HALT provide any amnesty or permanent legal status 
to anyone. Instead, the HALT Act suspends an extremely narrow 
set of protections that the Government only extends on a highly 
selective and case-by-case basis for the most part when there 
are humanitarian concerns or other compelling circumstances and 
no other avenue of relief is available.
    Justice requires some reasonable flexibility and 
administrative discretion in the enforcement of immigration 
laws. Ms. Lofgren already quoted the letter from 1999 in which 
many congressmen on both sides urged the agency to develop 
guidelines for the use of its prosecutorial discretion.
    The recent memoranda issued by John Morton, like other 
prosecutorial discretion memoranda issued by prior agency 
heads, respond directly to this congressional demand for 
guidelines on the use of prosecutorial discretion. It makes no 
sense for Congress to suspend statutory provisions allowing for 
the use of prosecutorial discretion because an agency head has 
attempted to answer a congressional suggestion to create 
guidelines for the use of that discretion.
    Some level of enforcement and prosecutorial flexibility is 
present in every law enforcement program in this country. Local 
police, for example, do not devote the same level of 
enforcement effort to minor property crimes or prostitution as 
they do to violent felonies.
    The costs of deporting someone are substantial. Deportation 
costs include the expenses of arrest, detention hearings, and 
physical removal. DHS and specifically ICE need the discretion 
to be able to prioritize their enforcement activities to those 
who present threats to our public safety and national security, 
such as those who have committed violent felonies. Our Nation's 
safety and security depend upon it.
    Deportations and worksite enforcement have substantially 
increased under the Obama administration, as compared to the 
prior Bush administration. I should note that on the same day 
the prosecutorial discretion memos were released, the Obama 
administration broke records by issuing 1,000 notices to 
employers around the country about worksite enforcement.
    In fact, this enforcement is so much so that the 
President's own supporters are complaining about the level of 
it. There is no basis for asserting that the Obama 
administration has implemented any amnesty program and, thus, 
no need for the HALT Act.
    Instead of improving an already-broken and dysfunctional 
system, the HALT Act would worsen the current dire situation. 
Instead of constituting a step toward sensible and 
comprehensive immigration reform, the HALT Act would constitute 
a major step backwards.
    Thank you very much.
    [The prepared statement of Ms. Stock follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you, Ms. Stock.
    First of all, I would like to respond to your reference to 
me being willing to entertain consideration on special bills.
    I think the record is clear on this. I have been on this 
Committee for over 20 years, and I have voted on many, many, 
many special bills in the affirmative. Not all, but most. And I 
would say that I am not the only one up here that has voted on 
special bills.
    And I would think that the Chairman would certainly be in 
that category as well, who has voted on special. So that is a 
mechanism that we do use.
    Ms. Stock. Could I request one on behalf of two people that 
are listed in my written testimony?
    Mr. Gallegly. Through regular order, we will be happy to 
see that that takes place, through regular order.
    Ms. Lofgren. Would the Chairman yield?
    Mr. Gallegly. I have really very limited amount of time, 
but I would yield.
    Ms. Lofgren. I would just note, in fact, that the Chairman 
has voted for private bills. I acknowledge that. But because of 
the difference between what the Senate is doing, we have only 
passed 3 private bills in 8 years that have actually become----
    And I thank the gentleman for yielding.
    Mr. Gallegly. Well, the leadership on the Senate is a 
little different than our leadership over here, to my good 
friend from California, as we will probably see in the next few 
days.
    With that, Mr. Crane, the leadership over at DHS and the 
policies of DHS and the will of DHS in enforcing our 
immigration laws by many is concerning. How would you define 
the will of the leadership in DHS to actually enforce our 
immigration laws?
    Mr. Crane. I think officers in the field, sir, would tell 
you that the motivation is purely political. They are trying to 
do a balancing act between a PR campaign to make the American 
public think that they are actually taking the necessary law 
enforcement actions and somehow satisfying immigrants advocacy 
groups.
    I don't think our real focus right now at the headquarters 
level really is law enforcement. And I think if you look at the 
folks that we have up at ICE headquarters, you will find out 
that they don't have a background in this business. Most of 
them are attorneys. They are folks from other law enforcement 
agencies. They came from homeland security investigations, 
which really doesn't do immigration work. They don't really 
have a foundation in what we do, and it has just become a 
political motivation, I think, in everything that we do.
    Mr. Gallegly. From your perspective, does ICE have 
sufficient resources to remove any of the most serious criminal 
immigrants, or is this simply an excuse not to enforce laws 
that the Administration doesn't agree with?
    Mr. Crane. I think that DHS and ICE have both 
oversimplified our resources out in the field and how it 
actually works in the field. There are those days when we have 
the ability, you know, we don't catch all the worst of the 
worst every single day of the week in every single location 
across the country.
    And in that regard, we do have the ability to have a more 
balanced approach to immigration enforcement but, at the same 
time, focus on the worst of the worst, which is what we do. But 
there are those days when we have the ability to concentrate on 
lower-priority cases, and that is what we do.
    Now, in terms of resources, absolutely we need more 
resources. But it is not that simple. We do have the ability to 
go out----
    Mr. Gallegly. Well----
    Mr. Crane. I am sorry.
    Mr. Gallegly [continuing]. The real question really had to 
do with considering the limited amount of resources you have. 
Are there sufficient resources to deal with the most serious 
criminal aliens, or are some of those passed over, as I said, 
because of philosophical differences with the law, rather than 
the fact that I guess in the--to do it selectively rather than 
by the rule of law?
    Mr. Crane. I think at this point, based on the folks, the 
people that are here that we are able to identify, I think we 
do have the resources to remove or apprehend and arrest the 
worst of the worst.
    Mr. Gallegly. Ms. Vaughan, is it appropriate for the 
Administration to use deferred action and other types of 
prosecutorial discretion in order to achieve the policy goals 
that Congress has clearly rejected?
    Ms. Vaughan. No, absolutely not. I mean, Congress has the 
authority to make immigration laws. And while the executive 
branch needs some discretion for the most exceptional cases 
sometimes, it is not appropriate to use these tools to bypass 
Congress when it can't get its way.
    And I think deferred action has the potential to be abused 
on a very grand scale if Congress were not to exercise some 
oversight over the Administration. And because it doesn't have 
a statutory basis, like there are definitions for temporary 
protected status and for other parts--some of the other forms 
of relief that are listed in the bill, but deferred action has 
not been utilized in the same way and doesn't have the same 
kind of controls on it.
    And deferred action is also one specific form of relief 
that has been put out there to be used for a general amnesty in 
memos that were circulated within USCIS. So it is clear that 
that has been the plan.
    Mr. Gallegly. Okay. Thank you very much, Ms. Vaughan.
    Ms. Stock, same question?
    Ms. Stock. Well, I would disagree that you need to enact a 
law that gets rid of deferred action in order to deal with 
particular cases where you feel that it may have been granted 
in error.
    Mr. Gallegly. That really wasn't the question.
    Ms. Stock. Well, the bill would eliminate the----
    Mr. Gallegly. No. The question I had, if you will indulge 
me, is, is it appropriate for the Administration to use 
deferred action or other types of prosecutorial discretion to 
achieve immigration policy that has clearly been rejected by 
the U.S. Congress? That is the question.
    Ms. Stock. Well, the problem is I haven't seen them do 
that. They usually do it in response to----
    Mr. Gallegly. That is still not the question.
    Ms. Stock. They do it in response to congressional 
requests. As I put in the record, a letter from Members of 
Congress on both sides of the House requesting the use of 
deferred action on behalf of military personnel.
    Mr. Gallegly. Okay.
    Ms. Stock. And I put that letter in. I didn't have time to 
read it all into the record. But----
    Mr. Gallegly. Thank you.
    Ms. Stock [continuing]. The letter in my testimony.
    Mr. Gallegly. Thank you, Ms. Stock.
    I still don't think you answered the question, but I 
respect your right.
    Ms. Lofgren?
    Ms. Lofgren. Thank you, Mr. Chairman.
    Just a couple of comments. I am a product of a union 
household. My grandfather was a Teamster. My dad was recording 
secretary of Local 888 of the Teamsters. My grandfather on the 
other side was a business agent for the Machinists Union. So I 
certainly respect unions, but I also respect management.
    And there is a role for management, and it seems to me when 
it comes to law enforcement, it is just like a city police 
department. I mean, when the mayor and the city council and the 
chief of police say we are going after auto thefts, 
gangbangers, and burglaries, the guy on the street is not 
supposed to go out and spend his time ticketing jaywalkers.
    I mean, the priorities are set by the civilian authorities. 
And I think that the testimony from Mr. Crane really flies in 
the face of that.
    I am not a defender of the department. In fact, I had 
tremendous criticism of ICE because they told local communities 
that participation in Secure Communities was optional. And in 
my county, the chief of police for the City of San Jose, the 
10th largest city in the United States, didn't want to 
participate because it was interfering with his community 
policing strategy. And the sheriff of the county didn't want to 
participate.
    And there was a unanimous vote, Democrats and Republicans 
on the county board, saying they didn't want to participate. 
And then it changed. In terms of an IG investigation, I asked 
the IG to investigate what happened, and I hope to find out 
what happened. I was not happy with that.
    But having said that, this bill, I think, as I said before, 
is a huge mistake. Because it is not about the personalities. 
We will find out what happened and whatever. If it was wrong 
instead of error, corrective action will be taken.
    I have some questions for you, Colonel Stock, if I could? 
You have talked in your written testimony about the hardship 
that could result if the HALT Act were enacted. Can you 
elaborate on some of the use of discretion and how it benefits 
military men and women?
    I think about a case that was in Los Angeles, and I wasn't 
involved in the case, but I read about it in the LA Times of a 
guy who came back from Iraq with some traumatic injuries. His 
wife didn't have her documents. He was an American soldier. 
Their kids were American citizens, and she was caring for him.
    And I think she got deferred action so she could take care 
of her husband. Would that be possible if the HALT Act were 
enacted?
    Ms. Stock. I believe you are talking about the Barrios 
case? And she was granted parole in place. She also would have 
been cancellation eligible, but the agency realized that it 
didn't make sense from a cost perspective to put her through a 
whole deportation proceeding to pursue cancellation.
    Under the HALT Act, however, she would not have been 
eligible for any relief. Her husband would have been left in 
the United States with their children. She would have been 
forced to go back to her home country for 10 years before 
returning to the United States.
    Luckily, the HALT Act had not been enacted when her case 
came into the news. And she, I believe, had also attempted a 
private bill, but nothing had ever come of that.
    Ms. Lofgren. Let me ask you about the deferred action. The 
statistics are this. Last year, 12,338 people were granted 
deferred action. 11,796 of those were victims of domestic 
violence, human trafficking, or serious crimes, seeking legal 
protection specifically created by Congress for such vulnerable 
individuals.
    Why is deferred action in cases like that important, for 
example, for domestic violence victims?
    Ms. Stock. Well, it is very important so they don't get 
deported, which is usually what their abusers want. In fact, 
one of the common tools that abusers use to try to subjugate 
their spouses in this situation is the threat of deportation. 
They will call agencies and try to have their spouses deported.
    And it is important understand the reason their spouses 
don't have any papers is because they won't file them for them. 
You know, these are people who are entitled to be lawful, but 
they are being abused----
    Ms. Lofgren. So they are victimized. Their abuser is using 
the system.
    Ms. Stock. They are victimized, and deferred action is 
important to allow them to stay in the United States to get 
work permission so they can get away from their abuser and 
pursue the remedies which----
    Ms. Lofgren. I would note that is why the U Visa was a 
product of bipartisanship here in the Congress, to prevent 
that.
    Let me talk about the extreme hardship, and there has been, 
Ms. Vaughan mentioned, an increase in the number of extreme 
hardships granted. It occurs to me that a substantial number of 
the people who are seeking those waivers are from Mexico. And 
we now have--we have had over 40,000 people murdered by the 
drug cartels in Mexico.
    It seems to me, and we are paying hazard duty pay to 
Americans who are working in our embassies there because it is 
so violent and so dangerous. If it is a 10-year bar, you are 
basically telling the American spouse, and you and your wife 
are going to live in Ciudad Juarez for the next 10 years, where 
the bodies are piling up. Could that be a factor in the extreme 
hardship area?
    Ms. Stock. Yes, indeed, Ms. Lofgren, it is a factor. In 
fact, that is one of the reasons why DoD requested the 
discretionary remedies for military families. Because some of 
the military families were being targeted by the bad guys down 
in Mexico.
    And there are an extremely large number of people seeking 
waivers in Mexico. To separate them for 10 years, to have a 
military family that can't have the person providing childcare 
in the country for 10 years is definitely an exceptional and 
extremely unusual hardship. And it is relatively easy to show 
that burden by putting in all the proper documentation and the 
psychological reports, the reports about violence in Mexico, 
and so forth and so on.
    Ms. Lofgren. My time has expired, Mr. Chairman.
    I wonder if I could ask for a unanimous consent request to 
put in the record a letter signed by over 70 national, State, 
and local organizations that work with immigrant survivors of 
domestic violence, sexual assault, human trafficking, and other 
violent crimes. Letters from five persons who adopted or are in 
the process of adopting Haitian orphans admitted through 
humanitarian parole, as well as organizational statements from 
the First Focus Campaign for Children, the Hebrew Immigrant Aid 
Society, the National Association of Latino Elected and 
Appointed Officials Educational Fund, the ACLU, and the Asian 
American Center for Advancing Justice.
    Mr. Gallegly. Without objection, they will be made a part 
of the record of the hearing.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
    With that, I would yield to the gentleman from Texas, the 
Chairman of the full Committee, Mr. Smith.
    Mr. Smith. Thank you, Mr. Gallegly.
    Mr. Crane, let me direct a couple of questions to you. You 
mentioned the unprecedented vote, I think, 13 months ago. It 
was a vote of no confidence in the ICE officials. Have you seen 
any action by this Administration since that vote of no 
confidence to change your mind about this Administration and 
its apparent unwillingness or intentional desire to not enforce 
some immigration laws?
    Mr. Crane. No, sir. I think, from our perspective, things 
are actually getting worse. I think that the most recent 
policies kind of point that out.
    Mr. Smith. What do you mean, specifically? Why are things 
even worse than 13 months ago?
    Mr. Crane. Well, I think, you know, issues like the 
prosecutorial discretion memo, I think those, you know, present 
some real obstacles for us. We see them as being purely 
political in nature. The agency, when they issued that policy, 
didn't even issue guidelines or training to the field to let 
people know how to enforce it. It was just kind of a knee-jerk 
reaction to satisfy certain groups.
    Mr. Smith. Now you mentioned that you feel that there are, 
in fact, orders not to arrest some individuals, some illegal 
immigrants. Why do you think that is the case? Do you have 
evidence of that?
    Mr. Crane. I don't know if we can actually give you 
physical evidence of it. We could possibly give you witness 
statements, officer statements from the field. ICE has gone to 
a system where they hardly put anything in writing. Everything 
is done verbally, even the directives coming from headquarters, 
because they don't want anything slipping out to the media. 
They don't want the public to see what they are doing behind 
closed doors.
    So our officers are absolutely being told on operations you 
can't run background checks. You can't run criminal checks. You 
can't run immigration checks. You can't talk to anyone when you 
go out in the field.
    If you have a target to arrest and you walk into a house--
and this individual was convicted of drug distribution and you 
walk into a house, and he is in there with five other 
individuals, all sleeping on the floor, all with pockets full 
of cash, you can't talk to anybody. Get your target and get out 
of the house.
    Mr. Smith. Do you think there are some ICE agents who would 
be willing to testify as to what you have just said before a 
hearing of this Subcommittee, or would they lose their job?
    Mr. Crane. They will definitely ruin their careers if they 
do it. ICE is a horrific place for retaliation. That is 
something that we have been talking about since 2009 when I 
gave my first testimony. The internal investigations are 
corrupt. Our management officials, they really lack integrity, 
and I don't think--I would certainly be willing to ask, sir. 
But we would be asking a lot for them. They would be putting 
their whole careers on the line.
    Mr. Smith. Okay. Perhaps there will be some way for us to 
get their testimony and still protect their identity. And if 
so, we will pursue that with you because I think that is 
incredibly damaging comment about this Administration and 
certainly reinforces the need for us to pass legislation to try 
to counter that mindset, that unwillingness to enforce the laws 
or unwillingness to deport individuals.
    Because the result of all that is that a lot of Americans 
may lose their lives, may be injured. You don't know what the 
consequences are. And that actually takes me to my next 
question to Ms. Vaughan.
    Do you feel that Administration policy has already resulted 
in some innocent Americans losing their lives and in other 
innocent Americans being unnecessarily injured or maimed?
    Ms. Vaughan. Yes, I do. I feel quite confident that that is 
the case, not just Americans, but also immigrants as well. 
There was one case up near where I live in Massachusetts of a 
woman and her 4-year-old son who were murdered by an illegal 
alien who had been arrested and charged with acts of violence 
on more than one occasion before, both in New York State and in 
Massachusetts, and who was not detected because he used false 
names.
    If the Secure Communities Program, for example, had been in 
place, he would have been detected. And I have heard from 
individuals who are in a position to know that that is a case 
that they would have prioritized, if they had known that he had 
been arrested.
    But ICE is allowing States, effectively, to not participate 
in Secure Communities for political reasons. They have not 
required Massachusetts to participate, even though they have 
both the mandate and the authority to do so. So I believe that 
her life and her son's life, as does the district attorney, who 
is now trying to extradite that former illegal alien from 
Ecuador, also believes that it would have saved two lives in 
that situation.
    Mr. Smith. And I assume that there are dozens, if not 
hundreds or thousands, of similar cases across the country 
where crimes were committed by individuals who should not have 
been allowed to remain in our country.
    Ms. Vaughan. Definitely. Their family members often write 
to me and ask what can be done.
    Mr. Smith. Okay. Thank you all for your testimony.
    I yield back, Mr. Chairman.
    Mr. Gallegly. I thank the Chairman.
    From Puerto Rico, my good friend Mr. Pierluisi?
    Mr. Pierluisi. I will yield my time, my turn to 
Congresswoman Sheila Jackson Lee.
    Mr. Gallegly. Ms. Jackson Lee?
    Ms. Jackson Lee. Let me thank my very----
    Ms. Lofgren. If I may, Mr. Chairman? That was my mistake, 
and I don't think Mr. Pierluisi needs to yield his time. Ms. 
Jackson Lee should be recognized before Mr. Pierluisi.
    That is my mistake.
    Mr. Pierluisi. I appreciate that very much.
    Mr. Gallegly. Very good.
    Ms. Lofgren. My error.
    Ms. Jackson Lee. Well, I thank both of my colleagues, and I 
thank Mr. Pierluisi for being such a distinguished colleague 
and friend. We all have overlapping Members, and I thank the 
Ranking Member for his courtesies.
    This is an important hearing, and I thank the Ranking 
Member for establishing a framework that I know was established 
before--Ms. Lofgren and Mr. Conyers before I came.
    But I do want to acknowledge that Mr. Smith and I have 
worked together in years past on a number of legislative 
initiatives, and I even enjoyed his support on a letter that I 
know he knows, the famous letter that was signed by a late 
colleague and certainly adored Member of this Committee, Mr. 
Hyde. That in the second paragraph mentioned, ``However, cases 
of apparent extreme hardship have caused concern,'' and the 
gist of the letter is asking for discretion. I think 1999 was 
still the presidency of President Clinton.
    I also want to say that I look forward to this Committee 
and Homeland Security embracing our ICE officers to ensure--I 
will join anyone on their increased pay and compensation. I 
don't, in any way, want to diminish the important work that 
they do, and most of all, I want to see them safe and secure 
and express my sadness for the tragic losses that they have 
experienced and most recently. I think that is an important 
statement, and we all need to own up to the important work that 
ICE does.
    At the same time, I think it is important for law 
enforcement to be collaborative and not be afraid of 
policymakers who are making decisions that are rational and 
speak to the wide diversity of the work that law enforcement 
has to do. So, for example, let me be very clear on the record, 
I abhor criminal aliens who may prey upon our citizens, and I 
believe that we have provided all manner of resources to ensure 
that criminal aliens who are violating the rights of our 
citizens and their family members maybe are brought to justice.
    We salute ICE for its work. But I can't, for the life of 
me, believe that Mr. Morton, who has taken an oath of office, 
would in any way give oral demands to do untoward things. And 
he is not here today, and I want to say that he has a right to 
defend himself. And I have, in the course of my interaction 
with ICE, I have seen the performance of Mr. Morton on behalf 
of this Nation and his support for his men and women in ICE, 
fighting for them.
    We were on an airplane where he was headed down to the 
family in Brownsville, a tragedy that happened and that we are 
all working together to ensure that that doesn't not happen. So 
let me be very clear on that, and I stand as a person that 
takes no backseat to support of unions and labor and employee 
organizations. But I think that we have to be balanced in our 
representation for someone who is not here.
    Let me, Colonel Stock, pose this question quickly to you. 
Thank you for your service.
    Thank you, Mr. Crane, for your service. And Ms. Vaughan.
    But I believe you served in the U.S. Army and taught at 
West Point for many years. It is my understanding that it is 
considered best practice among military, governmental, and 
public policy decision-makers to be presented with the full 
range of options available to them, but that outlining all 
options is not the same as endorsing such options.
    Does this comport with your understanding of this process? 
Do you think that the draft USCIS memorandum on administrative 
options from last year is significant enough to raise concerns 
of an impending amnesty?
    Ms. Stock. Thank you for that question, Congresswoman 
Jackson Lee, and I think that is a really important question 
because I can't quite understand the uproar that is being 
caused by people having leaked what looks to me like a standard 
options memo that every public policy student is allowed to 
write to decision-makers.
    That is standard practice in the Federal Government, and in 
public policy schools, they teach this--that when you have a 
new boss and he is unfamiliar with the authority that he 
exercises, you are supposed to write him an options paper, 
laying out all possible options to solve a problem. This is 
called the scientific decision-making process. In the Pentagon, 
they call it the military decision-making model.
    It doesn't mean you are actually going to implement all the 
options. It is to lay them all out so you can study their 
feasibility, acceptability, and suitability, which includes the 
political aspects of them. So----
    Ms. Jackson Lee. Using----
    Ms. Stock [continuing]. To criticize that is somewhat 
misguided, and I suspect that there is an options paper out 
there at the Internal Revenue Service right now about the 
amnesty that they have going on.
    Ms. Jackson Lee. So that the procedures, if I might, that 
are rumored to be throwing away the keys, letting criminal 
aliens run wild, and not being with good judgment is not the 
case. This is a situation where mercy cases, hardship cases are 
being allowed to be considered by thoughtful law enforcement to 
decide what to do.
    Is that what the case is?
    Ms. Stock. Well, that is my understanding of what is going 
on. But the memo that they are talking about was simply an 
options memo that is a standard practice in public policy. It 
is standard at the Pentagon, except usually there, they 
classify it so they can jail the guy that leaked it to the 
Hill.
    It is a standard thing to lay out these public policy 
memos, and for example, if you have a crisis in a foreign 
country, you might say one option is to send in the 82nd 
Airborne. The second option is to issue temporary protected 
status to nationals of that country, which will cause a money 
flow and help stabilize that foreign country.
    So what they were doing there at DHS was simply standard 
public policy practice, and it goes on every day in every 
agency of the Government. And I seriously----
    Ms. Jackson Lee. So passing the HALT bill is not something 
that you think is imperative?
    Ms. Stock. You don't need to eliminate the discretionary 
authority of CBP, USCIS, and also some discretionary authority 
of ICE in order to address the fact that people are laying out 
options memos internally within an agency, no. That would be a 
gross mistake.
    Ms. Jackson Lee. I thank the Chairman, and I agree----
    Mr. Gallegly. Time of the gentlewoman----
    Ms. Jackson Lee [continuing]. The HALT bill should not be 
an imperative and should not pass.
    And I thank the Chairman for his courtesy, and I yield 
back.
    Mr. Gallegly. I thank the gentlelady.
    The gentleman from Michigan, Mr. Conyers?
    Mr. Conyers. Thank you, Mr. Chairman.
    With all due respect to Pedro Pierluisi, I am going to 
yield some time to Zoe Lofgren.
    Thank you, sir.
    Mr. Gallegly. The gentlelady from California?
    Ms. Lofgren. Well, thank you, Mr. Conyers.
    I did have a question, Mr. Crane, for you. You are under 
oath, of course, and you indicated that unnamed individuals 
would be fearful of coming forth to identify orders that might 
constitute misconduct. But you are here today, and I am 
wondering if you can tell the Committee who in ICE gave those 
directions?
    Mr. Crane. I am not prepared to give you those names right 
now, ma'am. I could not. But----
    Ms. Lofgren. Well, if you won't give us the names, I don't 
believe what you are saying is true. I mean, you are here----
    Mr. Crane. I will get you the names, ma'am.
    Ms. Lofgren. You are known.
    Mr. Crane. I will get you the names.
    Ms. Lofgren. I have another question for you. We are 
conducting not an oversight hearing, but a hearing on this 
bill. In your testimony, you specifically comment on the 
actions of the Secure Communities Advisory Committee.
    Now it is my understanding that the bylaws of this 
Committee require confidentiality of the proceedings to ensure 
fair process and debate of these issues. How is it that you are 
able to publicly comment on these activities, when all the 
other Members of the Committee are prohibited from doing so?
    Mr. Crane. I don't know that that is completely true, 
ma'am. I know that there were----
    Ms. Lofgren. So you are saying the bylaws permit you to 
talk about what is going on?
    Mr. Crane. What I would like to say is that there was 
actually at the last meeting that we attended, there was some 
very strong language about our ability to go out and talk 
publicly about what was being said, that we couldn't give out 
the actual recommendations and findings.
    So that is my understanding of the process. They have----
    Ms. Lofgren. Okay. Well, we will look into this further 
then and not in the Committee, as that is not my understanding. 
But we will come to an understanding of it.
    I would like to ask you, Colonel Stock, you know, I come 
from Silicon Valley, and we have a tremendous number of really 
amazing inventors, engineers. Some of them come from countries 
where there is tremendous backlog in petitions, for example, 
India or China. And because Silicon Valley and the technology 
world is multinational, if you are going to be successful in 
business, you sometimes have to travel.
    Many of these individuals get advance parole if they have 
to go over to Europe or someplace to do something for their 
company. If the HALT Act was passed, how would these scientists 
and engineers go and attend to the business overseas and get 
back in?
    Ms. Stock. Well, they wouldn't. That is the problem. Once 
they have applied for adjustment of status, the current 
requirement is they have to get advance parole to travel 
internationally, and that is going to be the biggest impact of 
the HALT bill, if it is enacted, is suspending the ability of 
hundreds of thousands of these folks while the bill is in 
effect. Until January 2013, none of them will be able to travel 
internationally once they have filed for adjustment of status.
    This is not just going to affect Silicon Valley. It is 
going to affect the spouses of U.S. citizens, and it is going 
to affect people who need to go overseas for a funeral. We have 
had military cases where we have needed advance parole for 
somebody with a pending adjustment application so they could go 
to a spouse's funeral overseas.
    So that is actually the biggest impact. And I looked at the 
numbers, and we have had more than a million people getting 
advance parole in the past several years. And during the period 
that this bill will be in effect, if it is enacted, there will 
be probably about 500,000 people who are legal, have never 
broken immigration laws, and will be unable to get travel 
permission to travel internationally because the parole 
authority has been eliminated or suspended.
    Ms. Lofgren. Well, I think that is a serious--I don't know 
if anybody has done an analysis of the economic impact on the 
American economy. But it just seems to me that that would be a 
pretty severe blow to--I mean, the Valley is coming back. The 
tech world is coming back.
    Ms. Stock. Yes.
    Ms. Lofgren. That would be a severe problem, it would seem 
to me.
    You know, one of the things that everybody is for is 
orphans. And I am wondering if you could outline the impact 
that this--we had a number of letters here from adopting 
families. How often are these discretionary tools utilized with 
families that are adopting children?
    Ms. Stock. It is used frequently, and I have handled some 
of those cases. And it is not just the traditional ones that 
you are thinking about. But I handled a case, for example, once 
where USCIS paroled somebody in because a U.S. citizen was 
killed overseas, and there was a baby. And the baby had not yet 
derived U.S. citizenship.
    I know you are familiar with the complicated rules 
regarding derivative U.S. citizenship.
    Ms. Lofgren. Right.
    Ms. Stock. The grandparents wanted to take custody of the 
baby and bring the baby back with them to live in the United 
States of America, and there was no option under immigration 
law for them to do that, absent parole. There is no grandchild 
visa for tragic circumstances like this.
    A private bill would have taken a very, very long time to 
get through, and this was a baby that needed to be in the 
immediate care of the grandparents. So that is the kind of 
situation.
    There are also orphan and adopted children cases that get 
messed up for technical reasons. The parole authority is used 
in those cases. There are after-acquired child cases, where a 
child is born to somebody who has been approved to come to the 
United States in some category, and there is no way to get the 
child in because of the complicated procedures. So the parole 
authority is used at USCIS headquarters to bring the child in.
    Those cases would be halted under the HALT Act.
    Mr. Gallegly. The time of the----
    Ms. Lofgren. I would yield back to the gentleman, and 
thanks----
    Mr. Gallegly. The time of the gentleman has expired.
    Mr. Conyers. Thanks a lot, Zoe.
    Mr. Gallegly. Without objection, I will give the gentleman 
one additional minute.
    Mr. Conyers. Thank you, Mr. Chairman.
    I yield to Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. Thank you very much.
    I think when we talk just about statistics and policies, 
let me share with you the case of Nelson Delgado, who is a 
military veteran, a husband, and the father of two young U.S. 
citizen children, 9-year-old Esmeralda, 4-year-old Angel.
    He served 1 year in Iraq, 4 years in the Marines on active 
duty, another 4 in Reserve. Nelson, who immigrated legally, 
married Olivia, an undocumented immigrant who came from Mexico 
in 1995. A few years later, Olivia went back to Mexico to visit 
her sick father and reentered.
    Because of her departure after years of unlawful presence 
triggered a 10-year bar, Olivia was barred from seeking legal 
residency for 10 years, now faces deportation. This baffles 
Nelson because he served his country, and now he is being 
separated from his wife and his children.
    Mr. Crane, could you find it in your heart and within the 
laws and a flexible policy to be able to be responsive to Mr. 
Delgado?
    Mr. Crane. To be honest with you, ma'am, we do see cases 
that, you know----
    Ms. Jackson Lee. And you would be willing to have some 
flexibility and be well to receive that kind of counsel to be 
flexible in the deportation of his wife? Would you take into 
consideration his service, his willingness to die for his 
country?
    Mr. Crane. Well, first of all, ma'am, in the process, of 
course, that wouldn't be my place.
    Ms. Jackson Lee. But do you see the viability of that?
    Mr. Crane. Yes, I do, ma'am.
    Ms. Jackson Lee. And Ms. Stock?
    Ms. Stock. Well, the problem is, if the HALT Act were 
passed, there is no solution. You can't solve that.
    Ms. Jackson Lee. That is correct. And it allows no broad 
discretion using judgment and determining that this is a viable 
case in terms of her deportation, separating her from her 
military spouse and the children.
    Ms. Stock. That is correct, ma'am.
    Ms. Jackson Lee. That cuts off everything.
    Ms. Stock. She is just stuck outside the United States for 
10 years.
    Mr. Gallegly. The time of the gentlelady is expired.
    Ms. Jackson Lee. Thank you. I yield back.
    Mr. Gallegly. Mr. Gowdy?
    Mr. Gowdy. I thank the Chairman.
    Mr. Crane, I see the word or the phrase ``prosecutorial 
discretion,'' and I always thought that prosecutorial 
discretion was held by a prosecutor in deciding whether or not 
there were sufficient facts to warrant the reasonable 
likelihood of a successful conviction.
    Giving discretion to law enforcement officers or ordering 
law enforcement officers not to pursue certain criminal 
violations is not prosecutorial discretion. That is something I 
am not familiar with. So let me ask you from your perspective, 
it says ICE must prioritize the use of its enforcement 
personnel, detention space, and assets. What do you think about 
being told which laws to enforce and which ones not to enforce?
    Mr. Crane. Well, I think that prosecutorial discretion as 
officers is something that we have to exercise because there 
are simply too many cases that we can't apprehend every single 
individual. We do have to have law enforcement priorities in 
the field.
    However, I think that what we are seeing in the field as 
officers right now is more of a mandated order to allow certain 
individuals or certain groups of individuals to not be charged 
or arrested under immigration law. So that is our issue with 
it.
    Mr. Gowdy. I guess a cynic would suggest that the 
Administration was trying to get through memoranda what it 
could not get legislatively. Is that an overly cynical way of 
looking at it?
    Mr. Crane. I think it certainly has that appearance, sir.
    Mr. Gowdy. Is there someplace where we can sign up for an 
email blast and we can find out which criminal laws will be 
enforced today and which ones will not? Is that kept secret?
    Because I would love to know which Federal laws will be 
enforced by Federal law enforcement on a daily basis and which 
ones are not. That might help me direct my daily activities a 
little better.
    Mr. Crane. I couldn't agree with you more, sir. I think 
everyone in the American public needs to know exactly what ICE 
is doing. However, there is not even an email like that for 
employees to see.
    Mr. Gowdy. I can't imagine the frustration. I have worked 
with ICE and its predecessor agency for 6 years. A lot of 
respect for those special agents. I can't imagine having your 
hands tied by memo.
    Have you expressed your frustration at having your badge 
limited? And if so, what was the result?
    Mr. Crane. We don't really have a lot of interaction with 
Director Morton. He has not been friendly to the unions, to the 
employees. I absolutely believe that management has a place in 
this process, very strongly. But they are not really 
participating with us in that way. They don't seem to want to 
know the officers' opinion from the field.
    Mr. Gowdy. Do you think the policies are driven by 
something other than an apportionment of law enforcement 
resources? Could there possibly be a political component to any 
of this?
    Mr. Crane. Absolutely. I mean, we are completely confused. 
I know Secretary Napolitano came to the Appropriations 
Committee I believe it was last year and told congressmen that 
ICE doesn't need any more resources. We have all the people 
that we need because we have this magical thing called Secure 
Communities, which is this great force multiplier, which is 
absolutely false. It is incorrect.
    It is not an arrest multiplier for us by any means. If 
anything, it creates more work for us. Yet at the same time, we 
have the agency come out and say we don't have enough 
resources. We don't have enough manpower to arrest all these 
folks. So we need to make changes to our policies.
    So from our perspective, the agency can't have it both 
ways. They have got to start being straight with the American 
public about what resources we have and we don't have. And 
quite frankly, give our officers the appropriate priorities and 
training, but let us really exercise prosecutorial discretion 
in the field, and I promise everyone on this Committee that we 
will do a good job of it. And if we are not, we will be held 
accountable for it.
    Mr. Gowdy. Have any officers been disciplined for eschewing 
the memo and actually following the law as it is passed by the 
House, Senate, and signed by the President?
    Mr. Crane. ICE really doesn't do business like that for the 
most part. Generally, when something like that happens, it 
involves retaliation at some kind of level.
    You won't see future promotions. You will find yourself on 
a different detail. But very rarely do they step out, that wide 
out into the open and let anyone see that they are actually 
taking an action against an officer for something that 
specific.
    Mr. Gowdy. So the Administration does not ask for 
additional resources, but hides behind a lack of resources and 
setting nonlegislative priorities for the enforcement of ICE?
    Mr. Crane. That is my appearance of the situation, yes, 
sir.
    Mr. Gowdy. Thank you, Special Agent.
    Mr. Gallegly. Thank you, Mr. Gowdy.
    Mr. Pierluisi?
    Mr. Pierluisi. Thank you, Mr. Chairman.
    It is clear that Members of this Subcommittee hold 
differing views on immigration policy. But I hope that all of 
us can agree on one point, that the executive branch should 
target its limited immigration enforcement resources on the 
removal of dangerous criminal aliens.
    If that is, indeed, our goal, as I believe it should be, 
then the HALT Act represents a step backward, not forward. 
Passage of this bill would make us less, rather than more, 
secure. With the Federal Government tightening its budget, ICE 
does not have unlimited funding. In fact, ICE only has 
resources to remove approximately 400,000 aliens per year. With 
limited resources, whom should ICE deport?
    Should it deport the alien murderer or rapist? Or should it 
deport the noncriminal undocumented spouse of a U.S. military 
serviceman? I think most reasonable people would agree that ICE 
should deport an alien murderer or rapist above the noncriminal 
spouse.
    Yet under the HALT Act, the executive branch would lose its 
discretion to prioritize its resources. The result would be a 
de facto lottery, where undocumented immigrants are removed in 
the order in which they are processed, not on the basis of 
their danger to the U.S.
    This approach confounds common sense, and let me add a 
couple of thoughts, hopefully within the timeframe. I am 
troubled, actually, that the bill has this language about 
temptation. I mean, I am tempted to say lots of things, Mr. 
Ranking Member. But I am going to keep it civil.
    Now one thing, this is like putting the carriage in front 
of the horse. There is no record here. I hear you, Mr. Crane. 
But the statistics do not support what you are saying.
    And when you are asked to give some names and specifics, 
you refuse to do so. You say that, well, in due course, you 
will. Well, that puts us in a very uncomfortable position 
because the first thing that should be done by this Committee 
is to do oversight, the oversight that you were complaining 
about that hasn't been done.
    Once you do oversight and you determine that there has been 
abuse, then you take action. But there hasn't been any 
oversight, and the statistics, by the way, if anything, show a 
lot of enforcement in this last couple of years by this 
Administration.
    In fact, I was even amazed that you have the impression 
that immigration and advocacy groups are very pleased with this 
Administration. Let me tell you, sir. It is the opposite. I 
mean, I have yet to hear any immigration advocacy group praise 
ICE or DHS. So that confounds me.
    At the same time, I see that there is talk about these 
memos, and I tell you there is a difference between a 
decisional memo and a deliberative memo. A decisional memo 
binds officers to do X, Y, and Z. A deliberative memo is like 
what you were saying, Ms. Stock. It is simply options that are 
laid out, specifics that are laid out for the benefit of the 
officials who have this prosecutorial discretion.
    Lastly, prosecutorial discretion, but of course you have 
it. I am a former attorney general. You have it at the State, 
at the local, at the county level. You have it. And in the 
Federal Government, of all places, you have it a lot. And there 
is more than any time before with the limited resources that we 
have.
    So now, having said all of that, let me ask a couple of 
questions. Ms. Stock, if this were to become law, would the 
Government now be able to deport all individuals who are not 
legally present in the United States? Or would the Government 
still be able to deport only a certain number of individuals?
    Ms. Stock. Well, the Government would only be able to 
deport a certain number of individuals because Congress has 
only given a certain amount of money and resources to the 
agencies. And there simply are not the resources available to 
deport every single unauthorized immigrant in the United 
States. That is borne out by numerous studies.
    There is a mismatch between the numbers and the resources, 
and that is why priorities are important. And I think it is 
also important to point out that ICE is going to take a big 
budget hit on this particular bill because one of the tools 
that ICE uses investigatively is parole authority. They will 
give parole to an undocumented immigrant that they are using 
for the purpose of an investigation, and they will give that 
undocumented immigrant work permission to perhaps infiltrate an 
unscrupulous employer, go to work for that employer and support 
himself while this informant is in the country working for ICE.
    They are going to lose the ability to give work permission 
to those folks. So they are now going to have to support those 
individuals. They will still be able to use them for law 
enforcement purpose parole, but they are going to have to come 
to Congress for the money to support those individuals--
housing, food, et cetera. And they are going to lose the tool 
of being able to give them a work permit to go use for purposes 
of the investigation.
    So there is going to be a budget hit on this, and I also 
mention in my testimony that the Pentagon is going to have 
budget implications because they also parole people in and 
expect them to get work permits and go to work as translators, 
for example, for the Pentagon. That authority is taken away. 
Even in the exceptions that are in the bill for national 
security and law enforcement, those people aren't allowed to 
work.
    So there are going to be budget impacts to this bill, and 
you will have to ask ICE how many people they parole in for law 
enforcement investigative purposes. But I know because I have 
worked with them that they do that.
    Mr. Gallegly. I thank the gentleman. The time of the 
gentleman has expired.
    I want to thank the three witnesses that were here today 
for your testimony and your patience, since we had to get a 
little late start. But unfortunately, there are certain things 
we don't have total control on around here, if you hadn't 
noticed.
    In any event, I look forward to working with you in the 
future.
    I thank the Members of the Committee on both sides for 
attending today and look forward to working on this issue in 
the near future.
    With that, the Subcommittee stands adjourned.
    [Whereupon, at 3:39 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                 <all>

</pre></body></html>
